No.

3fn tPje

Supreme Court of tfje Mntteb i§>tate£
Christopher Lawrence, Chaslie Lawrence Lewis, Patrice Victoria Ricks,
Janie Ruth Wilson Lawrence, Charlie Junior Lawrence Sr., Charlie
Lawrence Jr, Cheryl Ann Lawrence Hughes, Carolyn Lawrence, Gregory
Michelle Lawrence, Fredrick Lawrence, Dr. Gwendolyn Denis Lawrence
Harrison, Samuel McAvin Lawrence, Reginald Lawrence, Cynthia
Lawrence Tolbert, and Charlette Lawrence,
et, al, Petitioners
vs.
UNIVERSITY HOSPITAL, et, al, Respondents,
On Petition for Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit
Certificate of Service
Petitioners’ hereby certifies that a copy of the forgoing Motion for Enlargement of
time has been filed with the Clerk of Supreme Court and a copy of the same
forwarded to Respondents’ Counsel of Record at
Kilpatrick Townsend & Stockton LLP
Attn: Joseph H. Huff
Enterprise Mill
1450 Greene Street, Suite 230
Augusta, Georgia 30901
(706) 823 - 4202

9-/*■/</

7

OFFICIAL SEAL
KAREN B WERLE
NOTARY PUBLIC - STATE OF ILLINOIS
MY COMMISSION EXPIRES:05/21/20

O f /////(Si S

(fruti/y o f

